March 31, 1999

M. RICHARD PORRAS
CHIEF FINANCIAL OFFICER AND SENIOR VICE PRESIDENT

JOHN F. KELLY
VICE PRESIDENT, EXPEDITED AND PACKAGE SERVICES

JAMES F. GRUBIAK
VICE PRESIDENT, INTERNATIONAL BUSINESS UNIT

SUBJECT:	 Review of United States Postal Service’s Economic Analysis and
          Forecasting Audit Report Number RG-AR-99-001

Attached is our final report on Economic Analysis and Forecasting by the United
States Postal Service. We have incorporated your responses to the draft audit
report and included it separately as an appendix.

The audit disclosed differences between USPS’ revenue and cost projections
and actual performance that could impair planning for future growth, create
difficulties in growing market share for products, and delay timely implementation
of USPS projects. Management agreed to our recommendations and has
planned or implemented actions that are responsive to each of the audit
recommendations.

The courtesy and cooperation shown the auditors by your staff is appreciated. If
you have any questions, please have your staff contact me or Wayne Goleski,
Director of Revenue Generation, at (703) 248-2300.


   //Signed//
Sylvia L. Owens
Assistant Inspector General for
  Revenue/Cost Containment

Attachment

cc: 	Allan Kiel
    John Gunnels
    Malcolm Harris
    Jean Parris
                          Table of Contents 



Part I

Executive Summary

Part II

Introduction
   Background

   Objective, Scope, and Methodology 


Audit Results

  Differences Between Forecasting and Actual Performance
   A. Expedited and Package Services Volume Forecasting
   B. Expedited and Package Services Business Plan Projections
   C. International Business Unit Business Plans


  Recommendations


Appendix
Economic Analysis and Forecasting 	                                            RG-AR-99-001


                                EXECUTIVE SUMMARY

Introduction 	                        We have completed an audit of the United States Postal
                                      Service’s (USPS) economic analysis and forecasting
                                      process. The Office of Inspector General (OIG), in
                                      cooperation with the Postal Inspection Service, initiated
                                      this review with two objectives: (1) to determine the
                                      effect on long-term improvements and sustained
                                      organizational performance; and (2) to analyze the
                                      accuracy and completeness of current methods.

Results in Brief	                     The USPS has utilized statistical programs for
                                      approximately 40 years. Early efforts involved collecting
                                      origination and destination data. Efforts have evolved to
                                      determine short- and long-term volume and revenue
                                      forecasts using econometric modeling. The Postal
                                      Reorganization Act of 1970 necessitated increased
                                      emphasis on forecasting because it required the USPS
                                      to recover costs for each class of mail on a projected
                                      basis.

                                      Our review and analysis of various USPS forecasts
                                      concluded that the USPS and its Economic Analysis and
                                      Forecasting group (now the Demand Forecasting and
                                      Economic Analysis group) had made substantial
                                      progress in projecting both total mail volume and
                                      revenue. Our comparative analysis of Economic
                                      Analysis and Forecasting’s forecasts for the 1994 Postal
                                      Rate Case (R94-1) to actual mail volume revealed yearly
                                      differences ranged from -.7 percent to 1.1 percent for the
                                      period 1994-1997. Since the USPS Corporate Finance
                                      Office utilized Economic Analysis and Forecasting’s
                                      forecast as a baseline, annual operating budget
                                      forecasts, when compared to actual, showed similar
                                      differences. The Corporate Finance Office’s forecast of
                                      total mail volume to actual mail volume ranged from -.7
                                      percent to 0.6 percent for the period 1994-1998.
                                      Additionally, Finance’s planned total revenue varied from
                                      -1.2 percent to 1.3 percent from actual during the same
                                      period.

                                      Despite the foregoing, our analyses of forecasts for
                                      specific products disclosed large differences in forecasts
                                      for two specific product lines: international products and
                                      Expedited and Package Services. Specifically, these
                                      differences were identified among Economic Analysis

                                                    i
                                       Restricted Information
Economic Analysis and Forecasting 	                                              RG-AR-99-001


                                      and Forecasting, Corporate Finance Office operating
                                      budgets, Business Plan forecasting, and actual
                                      performance of Expedited and Package Services and
                                      international products.

                                      These differences were caused primarily by:
                                      •	 Limited communications between management
                                         groups, and
                                      •	 Forecasts and business plans designed using
                                         multiple assumptions and consultants.

                                      Differences between USPS’ revenue and cost
                                      projections and actual performance could impair
                                      planning for future growth, create difficulties in growing
                                      market share for products, and delay timely
                                      implementation of USPS projects.

Recommendations	                      On the basis of our audit, we offer the following
                                      recommendations:

                                      The Chief Financial Officer and Senior Vice President
                                      should:

                                      1. Continue periodic meetings between Economic
                                         Analysis and Forecasting management and
                                         managers of Expedited and Package Services,
                                         International Business Unit, Budget, and operational
                                         areas to discuss factors affecting the market
                                         environment.

                                      2. Continue periodic forecasts by the Economic
                                         Analysis and Forecasting group to track short-term
                                         changes.

                                      3. Reduce USPS costs for contracting development of
                                         business plans by utilizing resources of the Economic
                                         Analysis and Forecasting group when possible.

                                      4. Identify and implement best practices by
                                         benchmarking the forecasting process.




                                                    ii
                                       Restricted Information
Economic Analysis and Forecasting                                         RG-AR-99-001


Summary of                          The Chief Financial Officer and Senior Vice President,
Management Response                 and the Vice President of Expedited Package Services
                                    concurred with the recommendations contained in the
                                    report. Their response to the recommendations included
                                    a summary of initiatives the USPS has in progress,
                                    completed, or planned, addressing these issues. We
                                    summarized these responses in the report and included
                                    the full text of the comments in the Appendix.
                                    Management's comments were responsive to our
                                    recommendations.




                                                  iii
                                     Restricted Information
Economic Analysis and Forecasting 	                                             RG-AR-99-001


                                           INTRODUCTION

Background 	                          The USPS has utilized statistical programs for
                                      approximately 40 years. Early efforts involved collecting
                                      origination and destination data. Efforts have evolved to
                                      determining short- and long-term volume and revenue
                                      forecasts using econometric modeling. The Postal
                                      Reorganization Act of 1970 necessitated increased
                                      emphasis on forecasting because it required the USPS
                                      to recover costs for each class of mail. Today, the
                                      Economic Analysis and Forecasting group utilizes
                                      statistical data to develop cost information and data from
                                      Corporate Finance to develop revenue information.
                                      Revenue, Pieces, and Weights data is utilized to
                                      attribute revenue and volume to each class and sub-
                                      class of mail. The function of the USPS Economic
                                      Analysis and Forecasting group is to produce financial
                                      and economic analysis including econometric modeling
                                      of USPS’ product information.

                                      Economic Analysis and Forecasting also serves the
                                      USPS in an advisory capacity on issues related to
                                      pricing, costing, investments, and other financial matters.
                                      The Economic Analysis and Forecasting group is
                                      responsible for developing and coordinating volume
                                      forecasts and other economic presentations for
                                      Corporate Finance and the Postal Rate Commission.
                                      Other groups, such as Expedited and Package by class
                                      and sub-class of mail for both short- and long-term (10
                                      years); 2) conducting special studies, such as the
                                      household diary study, (ongoing for 11 years), and 3)
                                      analyzing competitors’ strategies.

                                      Expedited and Package Services was created in January
                                      1997 and combined Priority Mail (1 day, 2-3 days, and
                                      global), Expedited Mail (formerly Express Mail), and
                                      Parcel Post (which is part of Standard B mail). The
                                      Expedited and Package Services market presents the
                                      USPS with an opportunity for growth, profitability, and
                                      enhancement of its position in the marketplace.

                                      The 1998 Expedited and Package Services Business
                                      Plan’s fundamental goals were to satisfy customers,
                                      improve service delivery, and increase revenue. To
                                      accomplish this, Expedited and Package Services
                                      focused on two specific types of customers; a) bulk

                                                        1
                                           Restricted Information
Economic Analysis and Forecasting                                                       RG-AR-99-001


                                    shippers of light weight, low dollar-value business to
                                    residences; and b) small office and home office
                                    businesses with special emphasis on ethnic businesses.
                                    In Fiscal Year (FY) 1997, Expedited and Package
                                    Services revenues totaled more than $5.4 billion.

                                    The International Business Unit was formed in June
                                    1995 and became operational in 1996. The International
                                    Business Unit introduced a new, independent business
                                    function within USPS. The realignment of the
                                    international mail function within USPS fostered a
                                    widespread expectation of superior growth.

                                    In a presentation to the Board of Governors in January
                                    1996, International Business Unit’s Vice President stated
                                    his vision of the International Business Unit by the year
                                    2005. Specifically, the Vice President stated, in 2005,
                                    the USPS would be the major global supplier of direct
                                    marketing, package delivery services, and related
                                    business transactions to business customers worldwide.
                                    By 2005, the Vice President of International Business
                                    Unit projected that the USPS would become the leader
                                    in global mail and package services, as well as become,
                                    a major contributor of revenue and growth to the USPS.

                                    To accomplish this vision, the International Business
                                    Unit would continue to maintain universal service while
                                    providing enhanced service to the key regions of the
                                    world, with initial focus on nine countries1. Also,
                                    International Business Unit would form alliances to help
                                    deliver an integrated package of services and products.
                                    In FY 1997, International Business Unit revenues
                                    totaled more than $1.7 billion.

Objective, Scope, and               The OIG, in cooperation with the Inspection Service,
Methodology                         initiated this review with two objectives: (1) to determine
                                    the effect on long-term improvements and sustained
                                    organizational performance; and (2) to analyze the
                                    accuracy and completeness of current methods. To
                                    address our objectives, we reviewed the USPS’ volume
                                    and revenue forecasts for FY 1994-1997. We analyzed
                                    projections made by the USPS’ Economic Analysis and
                                    Forecasting group and budget data prepared by the

1
 The nine countries were Argentina, Brazil, Canada, Chile, China, Germany, Japan, Mexico, and the United
Kingdom.

                                                       2
                                          Restricted Information
Economic Analysis and Forecasting                                            RG-AR-99-001


                                    USPS’ Corporate Finance Office. We interviewed USPS
                                    management and operating officials, evaluated internal
                                    reports on statistical systems and revenue tracking, and
                                    reviewed statistical information prepared by consultants,
                                    as well as the cost and revenue analysis reports for both
                                    domestic and international mail for FYs 1995-1997.

                                    In addition, we reviewed Revenue, Pieces, and Weight
                                    reports for FYs 1994 -1998. We also selected the
                                    USPS’ International Business Unit and the Expedited
                                    and Package Services offices for a detailed review of
                                    revenue and volume forecasting because of the higher
                                    incidence of variances from the baseline forecast
                                    developed by the Economic Analysis and Forecasting
                                    group. The review of International Business Unit and
                                    Expedited and Package Services therefore included an
                                    analysis of their business plans since their creation in
                                    1996, evaluation of internal reports, and review of
                                    statistical information prepared by consultants.

                                    This review was conducted from May 1998 through
                                    January 1999 in accordance with generally accepted
                                    government auditing standards and included tests of
                                    management controls as deemed necessary. We
                                    discussed our conclusions and observations with
                                    appropriate management officials and included their
                                    comments, where appropriate.




                                                     3
                                        Restricted Information
Economic Analysis and Forecasting 	                                              RG-AR-99-001



                                       AUDIT RESULTS

Differences Between                    Our review of Economic Analysis and Forecasting’s
Forecasting and Actual                 forecasts, Corporate Finance’s operating budgets and
Performance                            related business plans, disclosed substantial differences
                                       when compared with actual performance for Expedited
                                       and Package Services and International Business Unit
                                       individual products.

                                       These differences were caused primarily by:
                                       •	 limited communications between management
                                          groups, and
                                       •	 forecasts and business plans designed using multiple
                                          assumptions and consultants.

                                       Differences between USPS’ revenue, and cost
                                       projections and actual performance could impair
                                       planning for future growth, create difficulties in the
                                       growing market share for products, and delay timely
                                       implementation of USPS projects (i.e. capital
                                       investments and specific Expedited and Package
                                       Services enhancements such as Priority Mail Processing
                                       Centers, delivery confirmation, etc.).

                                       Economic Analysis and Forecasting must be maintained
                                       by the USPS because of requirements in the Postal
                                       Reorganization Act of 19702 that USPS revenues must
                                       equal operating costs, debt reductions, and future
                                       contingencies. Also, each product should generate
                                       revenue equal to or in excess of its attributable costs
                                       without cross-subsidization from other products.

                                       Our audit identified three conditions as follows:

A. Expedited and                       Our review disclosed that management in Corporate
Package Services                       Finance and Expedited and Package Services uses
Volume Forecasting                     Economic Analysis and Forecasting’s forecasts as
                                       baselines; however, these baseline forecasts are
                                       adjusted each year by Economic Analysis and
                                       Forecasting’s customers to prepare either USPS’ yearly
                                       operating budget or Expedited and Package Services’
                                       business plan. A comparative analysis of Economic
                                       Analysis and Forecasting’s forecasts for the Postal

2
    The Postal Reorganization Act of 1970, Sections 2009, 3621, and 3622.

                                                          4
                                             Restricted Information
Economic Analysis and Forecasting                                                                     RG-AR-99-001


                                        Rate Commission case (R94-01) and adjusted forecasts
                                        used in the operating budget when compared to actual
                                        performance for Priority Mail and Expedited Mail in FYs
                                        1995-19973 showed substantial differences.

                                        Comparison of Economic Analysis and Forecasting’s
                                        forecasts of Priority Mail to actual volumes disclosed
                                        differences from 17.976 million pieces (2.1 percent) in
                                        FY 1995 to 90.709 million pieces (8.5 percent) in FY
                                        1997. Comparison of budget volume differences to
                                        actual volumes also ranged from –44,349 million pieces
                                        (-4.7 percent) to 84.773 million pieces (9.8 percent) as
                                        shown in Chart 1:



                                                                           P r io r ity M a il
                                                                           ( In M illio n s )
                                                           1100

                                                           1000

                                                            900
                                                  Volume




                                      Chart 1               800

                                                            700

                                                            600

                                                            500
                                                                    1995                1996               1997
                                                                                         Year

                                                                         F o re ca st    A c tu a l   Budget




                                        Similar differences were also disclosed in our analysis of
                                        Expedited Mail. We found that Economic Analysis and
                                        Forecasting’s volume forecasts when compared to




3
    Parcel Post analysis was not performed because Standard B information was not available on a line item basis.

                                                             5
                                                Restricted Information
Economic Analysis and Forecasting                                                   RG-AR-99-001


                                    actual, varied between 1.428 to 6.405 million pieces (2.5
                                    percent to 10.1 percent) and the operating budget
                                    differences to actual varied from 0 percent to 6.7 percent
                                    as depicted in Chart 2:

                                                             Expedited M ail
                                                              ( In M illions )

                                                 65

                                                 60
                             Chart 2



                                        Volume
                                                 55

                                                 50

                                                 45

                                                 40
                                                      1995              1996          1997
                                                                        Year

                                                             Forecast   Actual   Budget



                                    The most recent Economic Analysis and Forecasting
                                    forecast was completed in February 1998. The
                                    Revenue, Pieces, and Weights report showed actual
                                    revenue for Priority and Expedited Mail for the third
                                    quarter of FY 1998 exceeded projections by 1.53 percent
                                    and 1.08 percent, respectively. However, the prior
                                    Economic Analysis and Forecasting forecast in
                                    December 1997 showed differences of 6.7 percent and
                                    3.61 percent respectively for the same period.

                                    The February 1998 forecast also made changes in
                                    projections for Priority Mail from the December 1997
                                    forecast for future years. For example, the February
                                    forecast exceeded the December forecast for Priority
                                    Mail by 6.18 percent in 1998, 11.81 percent in 1999, and
                                    16.96 percent in 2000. The total difference in revenue
                                    projected for just those 3 years was $1.5 billion.
                                    Management advised that current forecasts included
                                    different assumptions concerning competitors pricing, as
                                    well as other product features not contained in the
                                    December 1997 forecast. Management also advised
                                    neither forecast included any effect of change in market
                                    share created by Delivery Confirmation or Priority Mail
                                    Processing Centers.




                                                     6
                                        Restricted Information
Economic Analysis and Forecasting                                                                        RG-AR-99-001


B. Expedited and                    Expedited and Package Services management, in
Package Services                    conjunction with consultants, generated the Expedited
Business Plan                       and Package Services Business Plan utilizing the
Projections                         Economic Analysis and Forecasting forecast as a
                                    baseline. The Business Plan, however, included
                                    initiatives for Delivery Confirmation and or Priority Mail
                                    Processing Centers. The Business Plan’s projections for
                                    Expedited and Package Services’ products were much
                                    higher than the Economic Analysis and Forecasting
                                    projections. For example, the 1998 Business Plan
                                    projected Priority Mail revenue to grow at an annual rate
                                    of 14.9 percent between the years 1998 and 2000. The
                                    Economic Analysis and Forecasting forecast projected
                                    annual revenue growth at a rate of about 8 percent.
                                    Through the third quarter of 1998, actual revenue was
                                    14.3 percent higher than 1997 revenue.

                                    Standard B mail is comprised of Parcel Post, Bound
                                    Printed Matter, Special Standard Mail, Library Mail, and
                                    Domestic Mail Fees. Approximately 50 percent of the
                                    Standard B revenue is generated by Parcel Post. The
                                    Economic Analysis and Forecasting and Expedited and
                                    Package Services’ projections for Parcel Post volume
                                    vary even more than Priority Mail. For example, an
                                    Economic Analysis and Forecasting projection for Parcel
                                    Post volume in 2002 is 307 million pieces while
                                    Expedited and Package Services projects 660 million
                                    pieces. Chart 3 illustrates the differences between the
                                    two projections.

                                                                 Parcel Post Volume Comparison
                                                                              (In thousands)



                                              700,000

                                              600,000

                                              500,000

                                              400,000
                                     Pieces




                        Chart 3
                                              300,000

                                              200,000

                                              100,000

                                                    0
                                                    1997       1998       1999          2000     2001       2002   2003
                                                                                        Year


                                                        EPS Bus iness P lan       USPS EA&F Ana lys is




                                                             7
                                                Restricted Information
Economic Analysis and Forecasting                                                    RG-AR-99-001


                                      Expedited and Package Services’ management advised
                                      that they had used two consultants. One consultant
                                      generated the Business Plan and the second performed
                                      market research. The Economic Analysis and
                                      Forecasting group contracted with three different
                                      consultants to generate their forecasts. Based on our
                                      review, Expedited and Package Services’ management
                                      is closer to achieving its established goals. The
                                      Economic Analysis and Forecasting groups forecast and
                                      operating budget projections have improved over prior
                                      years. Increased interaction between the groups should
                                      and result in greater reliability of forecasts and enhance
                                      the financial accuracy of the USPS.

C. International                      As previously reported in OIG’s Report Number RG-MA-
Business Unit Business                98-005,4 the FYs 1996-1998 International Business Unit
Plans                                 Business plans projected international business growth
                                      based on increased revenues and contributions from
                                      new products and services. The new products and
                                      services included Global Package Link, Global Priority
                                      Mail, Direct Entry, Inbound, and Global Customized
                                      Solutions. To date, the International Business Unit has
                                      not generated the revenue growth expected as of FY
                                      1998. The inability to achieve the revenue goals was
                                      due to several factors including initial unrealistic revenue
                                      goals and inaccurate volume and revenue accountability.

                                      We analyzed actual revenue and reported costs for FYs
                                      1995-1997 from the International Cost and Revenue
                                      Analysis reports and the actual revenue and reported
                                      costs for FY 1998 from the International Business Unit
                                      Summary Report through accounting period eight.
                                      Actual revenues represented 28, 22, and 51 percent of
                                      the FYs 1996-1998 International Business Unit
                                      projections, respectively.




4
    Review of Revenue Forecasting-International Business Unit, September 29, 1998.

                                                         8
                                            Restricted Information
                            Chart 4
Economic Analysis and Forecasting                                              RG-AR-99-001


                                     International Business Unit officials advised that:
                                     •	 they have recently begun to work more closely with
                                         the Economic Analysis and Forecasting group,
                                     •	 regular monthly meetings are currently being held,
                                         and the International Business Unit has been
                                         developing a close working relationship with the
                                         Corporate Finance Office.

Recommendations                     We offer the following recommendations:

                                    The Chief Financial Officer and Senior Vice President
                                    should:

                                    1. Continue periodic meetings between Economic
                                       Analysis and Forecasting management and managers
                                       of Expedited and Package Services, International
                                       Business Unit, Budget, and operational areas to
                                       discuss factors affecting the market environment.


Management’s                        The Chief Financial Officer and Senior Vice President, and
Response                            the Vice President of Expedited Package Services
                                    concurred with this recommendation. They advised that
                                    they had established a new organization in the
                                    Department of the Controller to serve as a focal point for
                                    revenue and expense forecasting under a Manager,
                                    Forecasting. This is intended to draw together the
                                    collective knowledge and expertise in forecasting and to
                                    integrate better with other areas of the organization,
                                    including Budget, Marketing, Expedited/Package Services
                                    and International.

                                    Improvements in the revenue and volume forecasting and
                                    planning process for national targets have also been
                                    instituted. For the Establish 2000 management cycle, the
                                    Forecasting unit worked closely with Marketing and the
                                    Strategic Business Units to develop FY 2000 targets by
                                    class of mail. Joint reviews of forecasting assumptions
                                    and detailed forecasts were completed. Particular
                                    attention was given to Priority and International products.
                                    This Establish 2000 Outlook will serve as the basis for the
                                    Operating Budget and business plans.

                                    Other recent developments will also contribute to an
                                    improved process. The creation of Finance Managers in
                                    the Strategic Business Units has improved the liaison with

                                                       9
                                          Restricted Information
Economic Analysis and Forecasting 	                                        RG-AR-99-001


                                 Forecasting the office. The current forecasting process
                                 requires meeting with the business drivers to review
                                 competitor moves and assumptions before creating each
                                 forecast. Management created an internal review process
                                 for international rates, which allows for the continuous
                                 transfer of information. These process improvements are
                                 ongoing. Finally, as part of the CustomerPerfect! ongoing
                                 improvement efforts, there are five task forces focusing on
                                 incorporating customer and market requirements into the
                                 planning process and integrating the planning process.

Evaluation of                    Management’s comments are responsive to our

Management’s                     recommendation. 

Response 



Recommendation                   2. Continue periodic forecasts by Economic Analysis and
                                    Forecasting to track short-term changes.

Management’s 	                   The Chief Financial Officer and Senior Vice President
Response 	                       concurred with the recommendation. He advised that the
                                 Demand Forecasting and Economic Analysis unit (formerly
                                 Economic Analysis and Forecasting) continuously
                                 monitors revenue and volume trends and produces
                                 updated forecasts.



Evaluation of                    Management’s comments are responsive to our

Management’s                     recommendation. 

Response 





                                                    10
                                       Restricted Information
Economic Analysis and Forecasting 	                                           RG-AR-99-001


Recommendation                   3. Reduce USPS costs for contracting development of
                                    business plans by utilizing resources of the Economic
                                    Analysis and Forecasting group, when possible.

Management’s 	                   The Chief Financial Officer and Senior Vice President
Response 	                       concurred with the recommendation. In his response, he
                                 stated that better communication and cooperation with
                                 Marketing and the business units concerning forecasts
                                 should reduce the need for multiple forecasting resources.
                                 In his memorandum of March 3, 1999 the Vice President
                                 of Expedited Package Services indicated his expectation
                                 to limit contractor support to providing market and
                                 competitive information. The International Business Unit
                                 will be expanding its working relationship with Demand
                                 Forecasting and Economic Analysis through the new
                                 internal review process for international rates, and
                                 regularly scheduled meetings to discuss international
                                 market and economic conditions. This improved
                                 communication will diminish the need for contractual
                                 support when developing international business plans; and
                                 will improve the quality of official forecasts of international
                                 revenues and volumes.

Evaluation of                    Management’s comments are responsive to our
Management’s                     recommendation
Response

Recommendation                   4. Identify and implement best practices by benchmarking
                                    the forecasting processes.

Management’s 	                   The Chief Financial Officer and Senior Vice President
Response 	                       concurred with the recommendation. In his response, he
                                 advised that he supported the method of benchmarking as
                                 a way to seek continuous improvement. Within the next
                                 18 months, USPS plans to initiate an effort to review
                                 forecasting processes in other organizations and to
                                 identify and implement changes we believe would improve
                                 our process. Three key forces have caused Demand
                                 Forecasting to profit from improvements in forecasting
                                 methods outside the Postal Service. First, traditionally,
                                 outside professionals were hired, into this area and, in
                                 fact, two of the four individuals who have held the
                                 management position were recruited from the outside.
                                 Second, postal rate making subjects USPS’ forecasting to
                                 intense outside scrutiny. Lastly, Demand Forecasting and
                                 Economic Analysis has judiciously used outside

                                                     11
                                        Restricted Information
Economic Analysis and Forecasting                                          RG-AR-99-001


                                    consultants, whose research keeps them current with new
                                    developments.

Evaluation of                       Management’s comments are responsive to our
Management’s                        recommendation. We would appreciate being kept
Response                            informed about the efforts to benchmark with the
                                    forecasting processes in other organizations.




                                                       12
                                          Restricted Information
Economic Analysis and Forecasting                            RG-AR-99-001



Major Contributors to this Report:




                                                 13
                                    Restricted Information
Economic Analysis and Forecasting                            RG-AR-99-001




                                                 14                Appendix
                                    Restricted Information
Economic Analysis and Forecasting                            RG-AR-99-001




                                                 15                Appendix
                                    Restricted Information
Economic Analysis and Forecasting                            RG-AR-99-001




                                                 16                Appendix
                                    Restricted Information
Economic Analysis and Forecasting                            RG-AR-99-001




                                                 17                Appendix
                                    Restricted Information
